 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




THE CANCER INFORMATION                  SERVICE
       Expanding Telephone Access




                    JUNE GIBBS BROWN
                     Inspector General

                         MAY 1998
                       OEI-09-97-0360
                        OFFICE OF INSPECTOR              GENERAL

The mission of the Office of Inspector General(OIG), asmandatedby Public Law 95-452, is to
protect the integrity of the Department of Health and Human Servicesprograms aswell asthe
health and welfare of beneficiaries servedby them. This statutory mission is carried out through
a nationwide program of audits, investigations, inspections,sanctions,and fraud alerts. The
Inspector Generalinforms the Secretaryof program and managementproblems and recommends
legislative, regulatory, and operational approachesto correct them.

                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of severalcomponentsof the Office of
Inspector General. It conductsshort-term managementand program evaluations (called
inspections)that focus on issuesof concernto the Department, the Congress,and the public. The
inspection reports provide findings and recommendationson the efficiency, vulnerability, and
effectivenessof departmentalprograms.


OEI’s SanFranciscoRegional Office preparedthis report under the direction of Kaye Kidwell,
Regional Inspector General. Principal OEI staff included:

REGION                                             HEADOUARTERS

Paul Gottlober, Project Leader 
                   Alan Levine, Program Specialist 

Carrie Lozano, Lead Analyst 
                      BarbaraTedesco,Mathematical Statistician 

StevenZerebecki, Lead Analyst 

Jennifer Miller, Consultant 

Kathy Dezotte, Program Assistant 


    To obtaincopiesof this report,pleasecall the SanFranciscoRegionalOffice at 41S-437-7900.
        Reportsare also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
                   EXECUTIVE                       SUMMARY
PURPOSE

To identify and evaluatethe causesfor the high busy signal rates, abandonmentrates and wait
times on the Cancer Information Service (CIS) toll-free telephone service and to determine how
to reduce or eliminate them.

BACKGROUND

The Cancer Information Service’s (CIS) mission is to be the “voice of the National Cancer
Institute (NCI)” by providing the most current NC1 information to cancer patients, their
families and friends, health professionals and the public at large. The CIS disseminatescancer
information directly to consumersthrough its toll-free telephone service (l-800-4CANCER)
and indirectly through its outreach program.

Since 1976, CIS has provided cancer information to the public via its network of contractors,
currently numbering 19. Callers are automatically routed to the contractor responsible for
their geographic area. At eachcontractor, information specialistsanswer calls about the
causes,prevention, diagnosis and treatment of cancer. They also refer callers to local
community organizations. Contractors are also required to provide assistanceto community
organizations through an outreach program. Estimated contractor funding in 1997 was
approximately $15.8 million. ’

The CIS Branch, located in NCI’s Office of Cancer Information, Communication and
Education, is responsible for contractor and program oversight.

Accessto the service can be measuredin total calls taken, busy signal rates, abandonmentrates
(the percentageof callers waiting in queuewho disconnectbefore reaching staff) and wait
times (the averageamount of time a caller is on hold before speaking with staff). In
1997, almost 1 out of every 3 of the attempted calls (or 240,860 calls out of 834,185) to CIS
failed to reach an information specialist. Busy signal rates for the individual contractors
ranged from 10 to 52 percent during the sameperiod. Network-wide averagebusy signal rates
for 1995 and 1996 were similarly high. According to a National Performance Review Study,
the top ranked private sector telephone servicesexpect busy signal rates of less than 2 percent.

Our methodology consistedof mail surveys, telephone and in-person interviews, focus groups
and a review of CIS-related statistics and information.



       1
              Source: CIS Branch


                                               i
FINDINGS

The CIS is a valuable public service enhanced by its dedicated staff and strong training and
quality assurance programs

The CIS is a unique service that the public relies on for the most up-to-date, scientific
information on cancer. Despite stressand frustration, staff remain dedicated to the mission
and goals of CIS. A comprehensivetraining program and practical evaluation tool strengthen
the service and serve as models for others to emulate.

The CIS does not take full advantage of current telephone technology to improve access and
customer service

The CIS does not use its phone technology to route callers to the first available information
specialist. Furthermore, it does not provide callers with important recorded messagesthat
could preclude them from reaching a busy signal or waiting on hold.

Data gathering requirements adversely affect call efficiency

Although random sampling is a widely-accepted practice in both the private and public sectors,
CIS requires contractors to document 100 percent of calls and collect demographic data on half
of them. The software used to record the data is poorly designedand is accompaniedby
unnecessarilyrestrictive policies, such as requiring information specialiststo document the
sameinformation in both code and narrative form. The CIS staff regard the software and
related policies as critical factors that inhibit their efficiency.

Information specialists could be more efficient if their resources were more readily accessible
and user-friendly

Staff identified severalproblems with their main resource, the Physician Data Query. They
also reported that non-computerized resources,such as “Fact Sheets,” are difficult to maintain
and update and that their community service information is frequently inaccurate and
incomplete.

The regional structure does not contribute to a consistent and efficient phone service

Demographic differences, the number of phone lines and the distribution of resourcesare some
of the variables that have led to inconsistent contractor performance. Contractor performance
is also affected by the level of support received from parent institutions as well as local
managementpractices. While contractor staff continually and consistently volunteered that the
current regional structure enhancesthe “personalized” service that callers receive, we found
little supporting evidence.


                                                ii
The US’s customer service standards do not address access to the toll-free service

The CIS Branch has not set minimum accessstandardsfor CIS contractors. For example, CIS
contractors are not expectedto keep their busy signal rates under a specific threshold. Similar
health information organizations and other telephone service centersthroughout the country
have implemented minimum standards.

RECOMMENDATIONS

The Cancer Information Service, through its telephone service, provides the public with an
invaluable resource for information about cancerprevention, causesand treatment. To expand
accessto the toll-free service, the Office of Cancer Information, Communication and Education
should:

       .	     Complete and implement plans to upgrade CIS telephone technology to enhance
              contractors’ ability to respondto calls and provide information to all callers.

       .      Establish technical requirements and performance standardsfor contractors.

       .      Modernize and correct deficiencies in the Physician Data Query.

       .	     Improve efficiency by reducing data gathering requirements and computerizing
              more reference materials, such as “Fact Sheets.”

       .	     Discontinue collecting and disseminating community service information;
              instead, partner with national organizations to provide this information.

       .      Re-evaluatethe regional structure.

       .      Encourage contractors to further enhanceCIS staff training.

AGENCY      COMMENTS      AND OIG RESPONSE

We received written comments on the draft report from NC1 (seeappendix B). We are
encouragedthat NC1 already has taken action on some of our recommendations. However, we
remain concernedabout inefficiencies in vital areasof the program and would like to clarify
and reassertthe following recommendations.

We continue to believe that (1) to improve efficiency, NC1 should quickly adopt a statistically
valid sampling methodology for all CIS data recording and collection efforts, (2) the CIS
Branch and its contractors should ceaseduplicating private sector efforts by collecting,
maintaining and disseminating information on community resourcesand (3) NC1 should

                                               ...
                                               111
reconsider the regional structure of the phone service. The relationships between the phone
service, the outreach program and researchactivities do not justify the current inefficient
regional structure.




                                             iv 

                                                                                                                                             PAGE 

EXECUTIVE             SUMMARY 


INTRODUCTION                   ............................................................1


FINDINGS           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..f............................                             6


          Valuable public service,dedicatedstaff, strongtraining and quality assurance ........                                                     6

          Currenttelephonetechnology ..............................................                                                                 .

          Burdensomedata gathering ...............................................                                                                 .9 

          Accessibility of resources ................................................                                                              11 

          Questionableregional structure ............................................                                                              12 

          Customer servicestandards ...............................................                                                                15 


RECOMMENDATIONS                          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 


APPENDICES

A: CIS Regions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

B: NCI’s comments on the draft report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l
PURPOSE

To identify and evaluatethe causesfor the high busy signal rates, abandonmentrates and wait
times on the Cancer Information Service (CIS) toll-free telephone service and to determine how
to reduce or eliminate them.

BACKGROUND

The Cancer Information Service’s (CIS) mission is to be the “voice of the National Cancer
Institute (NCI)” by providing the most up-to-date information from NC1 to cancer patients,
their families and friends, health professionals and the public at large. The CIS disseminates
cancer information directly to consumersthrough its toll-free telephone service
(l-800-4CANCER) and indirectly through its outreachprogram.

The NC1 is the federal government’s principal agency dedicatedto understanding the nature of
cancer. The NC1 is a scientific institution with the majority of its resources(more than
$2 billion in 1997) being spent on researchinto the causes,treatment and prevention of cancer.

In 1971, President Nixon signed the National Cancer Act, authorizing additional funds for
cancer research, prevention and education through the initialization of the National Cancer
Program. In 1974, an amendmentto the Act made the CIS possible by mandating that the NC1
Director:

       . ..provide a contract for a program to disseminateand interpret, on a current basis, for practioners
       and other health professionals, scientists, and the general public scientific and other information
       respecting the cause,prevention, diagnosis, and treatment of cancer.

In the following 2 years, NCI’s Office of Cancer Communications and Division of Cancer
Prevention and Control jointly conceived a national toll-free telephone information service.
The NC1 offered contracts to its “ComprehensiveCancer Centers” (i.e., universities, hospitals
and researchcenters) (1) to maintain regional information services, using information on both
researchand treatment provided by NC1 and (2) to develop and maintain regional databaseson
clinics and organizations serving cancerpatients. In 1988, the Office of Cancer
Communications assumedfull oversight of the contractsthrough the CIS Branch. The CIS
Branch and the International Cancer Information Center (the publisher of the Physician Data
Query) are now under a new division called the Office of Cancer Information, Communication
and Education.

In late 1976, the CIS telephone service becameoperational. By that time, NC1 had contracted
with 17 ComprehensiveCancer Centersthat respondedto calls within separate,specific
geographic regions using individual toll-free telephone numbers. Available telephone
technology in 1976 did not allow call routing to different regions via a single, national toll-free
number. The new CIS contractors did not service the entire nation. Calls from areasnot

                                                        1
covered by CIS contractors were answeredby an alternate centrally-located contractor. In 

1983, CIS implemented a single, national toll-free number (l-800-4CANCER). Calls are 

routed automatically from the single number to the CIS contractors, basedon the callers’ 

locations. 


The current number of contracts is 19. Each contract respondsto calls within a specific 

geographic region. The sizesof the regions vary from covering a portion of a single stateto 

up to six full states. Together, the 19 contractsprovide service for the entire nation and Puerto 

Rico in English, Spanishand teletypewriter (TTY) for the hearing impaired. In addition to the 

19 contracts, CIS contracts for a Publications Ordering Service in Maryland. The publication 

service fulfills NC1 publication requestsfor the entire nation and also is reachedvia 1-800-

4CANCER. 


In addition to a small Federal staff in the CIS Branch, the CIS is staffed by a network of 

information specialists, telephone service managers,project directors, outreach managersand 

coordinators and support staff who are employeesof the 19 CIS contractors. Information 

specialistsare the voice of NCI; they answer incoming calls and provide information requested 

by callers. They use NC1 publications and NCI’s on-line databaseof cancer treatment, 

prevention and clinical trial information called the Physician Data Query (PDQ) as first-line 

resourcesto respond to callers. Information specialistsalso use community service databases, 

individually developed and maintained by the 19 contractors, to respond to callers’ requestsfor 

community information. Information specialistsdocument eachcall on-line using the 

Electronic Call Record Form. The form is used to record the reason for and responseto the 

call, the resourcesused during the call and the caller’s demographic information. 


The CIS Branch regularly evaluatesthe phone service by performing anonymous test calls to 

all contractors. The tool used for this evaluation is the CIS Telephone Evaluation and 

Reporting System (CISTERS). In short, CISTERS evaluates: 


t      the correctnessof the information provided; 

b      adherenceto policies and procedures; 

b      the completenessof the call; 

b      the appropriate use of resources; 

t      customer service (making sure the caller understood and received the information he or 

       she desired);
b      the information specialists’ demeanor, communication skills and credibility and
t      overall customer service.

On the basis of CISTERS test call results, CIS identifies areasthat require improvement. The
CIS Branch regularly provides contractors with reports of CISTERS test calls.

Telephone call statistics are maintained on a daily basis by the contractors and a monthly basis
by the CIS Branch. Daily statistics are aggregatedinto monthly reports. The Basic Call
Management System, AT&T’s Federal Telecommunications Service (FTS2000) Management
System and the Electronic Call Record Form are CIS’s instruments for measuring telephone
statistics. Each contractor collects daily telephone statistics using the Basic Call Management

                                               2
System, a computer system linked to the information specialists’ phone extensions. The 

AT&T provides separatedata from the FTS2000 Management System. Both the Basic Call 

Management System and FTS2000 record the number of calls taken, busy signal rates, 

abandonmentrates and the time connected. The Electronic Call Record Form records talk time 

for eachcall, a count of calls answeredduring a given period of time and information about the 

content of the calls. 


The number of calls reported by the Basic Call Management System, FTS2000 and the 

Electronic Call Record Form do not match. As a result, accuratefigures on the actual number 

of calls CIS is processing do not exist. The CIS Branch recently contracted with an 

engineering firm to explain the data discrepanciesand recommend changes. The firm also is 

analyzing telephone staffing and regional managementconfigurations. 


In addition to answering the toll-free line, CIS contractors are required to operate an outreach 

program and conduct limited research. Each contractor’s outreach coordinator servesas a 

liaison between CIS and other organizations interested in disseminating NC1 information and 

promoting NC1 messages. Outreach efforts also addressspecific cancer issues, such as breast 

and cervical cancer and clinical trials recruitment, with a particular focus on underserved 

populations and those individuals who have difficulty accessinghealth information. 


Total funding for the 19 CIS contractors in 1997 was $15,745,983,’ a decreaseof 9.4% from 

the 1996 funding level due to an NC1 mandate. In previous years, funding was: 


                    1993                  1994                  1995                   1996
                 $7,640,094           $17,272,420            $18,047,134           $16,786,158

Phone Service Access

Since its inception, CIS has answeredan increasing number of calls eachyear, from a low of
approximately 47,000 in 1976 to a high of almost 600,000 in 1997.3 The phone service
operatesfrom 9:00 AM to 4:30 PM, local time, Monday through Friday. Accessto the
service can be measuredin total calls taken, busy signal rates, abandonmentrates (the
percentageof callers waiting in queuewho disconnectbefore reaching staff) and wait times
(the averageamount of time a caller is on hold before speaking with staff).

In 1997, almost one out of every three calls to l-800-4CANCER during operating hours failed
to reach an information specialist. Almost 29 percent of the 834,185 attempted calls (i.e.,
240,860 calls) made to l-800-4CANCER resulted in a busy signal.4 Additionally, there are


       2
               Source: CIS Branch
       3
               Source: AT&T.
       4	
               Using CIS’s presentAT&T technology, it cannot be determinedhow representativethe busy
               signal rate is of the actual number of people who are attempting to reach the service and failing.

                                                       3
wide ranges in the accessstatistics for the 19 individual contractors. For example, in 1997 the
averagebusy signal rate per contractor varied from 7 percent to 53 percent. If the Spanish
telephone lines are included, the margin widens from 4 percent to 67 percent. The CIS Branch
reports similarly high busy rates for 1995 and 1996.

Contract funding for 19975indicates contractor spendingper completed call varied from
$29 to $74 for 18 of the 19 contractors. The averagecost per call for the 19thcontractor was
approximately $150. According to CIS, this unusually high cost per call can be attributed to
the contractor’s reliance on outreach and the low volume of calls it receives. The averagecos
per call (total contract spending divided by total number of completed calls) for the entire CIS
network was $41. The variance among contractors may be explained, in part, by contractor
spending on their outreach programs and the fact that contractors are required to employ
managementstaff in equal numbers, regardlessof the number of lines they operate.

                                   CIS Contractor      Variances (1997)
                                      Average                Average            Average number of
     Lines       Contractors
                                  busy signal rates        cost per call      completed calls per line
       3     I         1                 15%                  $1 506                      480
       4               7               7-30%                 $29- 74                 2921 - 4977
       5     I         5               22-32%                $23-41                  3933-6301
       6               6               9-50%                 $29-55                  3799-4744


Telephone Service Benchmarks

On September 11, 1993, President Clinton signed Executive Order 12862 on “Setting 

Customer Service Standards”in government. The directive required all executive agenciesthat 

provide direct public servicesto set benchmarks for customer service performance. 


In February 1995, Vice President Al Gore’s National Performance Review included a Federal 

Consortium Benchmark Study Report. The report focused on best practices in telephone 

service and found that the top ranked private sector organizations used the following measures 

to predict customer satisfaction: 


t      averagespeedof answer: less than 15 seconds 

b      abandonedcall rate: less than 2 percent 

b      busy signal rate: less than 1 percent 

t      service level (total calls minus busy signals and abandonedcalls): 98 percent 

t      first call resolution (one agent/no transfers): 85 percent resolution 



       5	
                 This is basedon the most recent budget figures received from the CIS Branch. During the course
                 of the inspection, we received severaldifferent setsof contract funding figures.
       6	
                 This region was closed for 3 months in 1997. Its budget was adjusted;therefore, the averagecost
                 per call reflects 9 months of phone service.

                                                       4
Other attributes of the top ranked private sector call centers include:

b      a recognition that state-of-the-arttelephone and computer hardware and software
       technologies are top businessimperatives,
t      peak demand times are managedby offering callers the choice of live or automated
       service while scheduling staff to meet call demand and
b      substantial site consolidation.

METHODOLOGY

In addition to a mail survey to all information specialists, we conducted on-site focus groups
with information specialistsat six contractor sites. Eighty-four percent (163 out of 195) of the
information specialistsrespondedto our mail survey. We selectedthe six contractor sites
basedon their call statistics, the populations they serve and their proximity to other national
cancerorganizations. Using informal discussion guides, we also interviewed (in-person or by
telephone) the project directors, telephone service managersand outreach staff at all
19 contractors as well as telephone service supervisorsat most of the contractors.

We chosea purposive sample of national cancer organizations to reflect the various types of
organizations that could benefit from or make use of CIS information. The sourcesused for
the sample included CancerCare’sA Helping Hand--The ResourceGuidefor People With
Cancer, organizations identified by the CIS Branch and the Internet. Inclusion was basedon:
1) the information or topic the organization addresses,2) their constituency and 3) the nature
of servicesthe organization provides. Prior to conducting interviews, we verified that each
organization serveda national constituency. We conductedinterviews with principal staff,
which included directors and managers, from 56 organizations regarding their scopeof
services, their information resourcesand their experienceswith CIS and the PDQ.

We visited 10 privately- and publicly-funded health information and cancer organizations.
Staffs were interviewed regarding their experienceswith CIS. We observedthe operations of
health information servicessimilar to CIS and reviewed their information systems, call
statistics and relevant policies and procedures.

We reviewed and analyzed policy and training manuals, reports, call statistics, contracts and
plans that CIS has developed over the last severalyears to improve the telephone service. We
also interviewed staff from the outreach program, CIS Branch, CISTERS, the International
Cancer Information Center and the contractor that is responsible for the Publications Ordering
Service, portions of the PDQ and programming the Electronic Call Record Form.

The findings in this report reflect the experiences,opinions and observations of contractor,
Branch, cancer and health organizations and OIG staff. A companion report entitled “The
Cancer Information Service--A Resourcefor National Cancer Organizations”
(OEI-09-97-00361) contains additional information regarding how national cancer
organizations use and value the Cancer Information Service and its resources. We conducted
our review in accordancewith the Quality Standardsfor Inspections issuedby the President’s
Council on Integrity and Efficiency.

                                                 5
THE CIS IS A VALUABLE PUBLIC SERVICE ENHANCED BY ITS DEDICATED
STAFF AND STRONG TRAINING AND QUALITY ASSURANCE PROGRAMS

The CISprovides a unique and valuable public service

The CIS is a unique health information service. It is the only cancer information service that
addressesall cancersand usesonly NC1 developed, reviewed and/or approved literature and
data. Callers are the general public, cancerpatients, their friends and families and health
professionals. Callers receive information from CIS that helps them to understand cancerand
make better informed decisions about treatment or prevention. Through CIS, the public learns
first-hand what advanceshave been made as a result of this nation’s investment in cancer
research. The public relies on CIS for the most comprehensiveand reliable clinical trials
listing available through a single toll-free phone service. Congressspecifically requires NC1 to
inform the public of its findings, and CIS is one of NCI’s principal modes of communication.

Other cancer organizations confirm that CIS is the most comprehensiveand credible sourcefor
cancer information. One organization praised CIS saying, “You get more information from
CIS than anyone else, and the information is scientific. Nationally, they are the most
credible. ” The sentiment was echoedby many other organizations. For additional information
on other cancer organizations’ perceptions of CIS, seethe companion report entitled
“The Cancer Information Service--A Resourcefor National Cancer Organizations”
(OEI-09-97-0036 1).

Despite stress and frustration,   staff remain dedicated to the mission and goals of CIS

The staff of CIS, information specialistsin particular, confront the reality of cancer on a daily
basis. Cancer patients and their friends and family, often desperatefor answers, turn to CIS.
To respond, CIS staff must master volumes of complicated information. They must be
sensitive to emotionally charged callers and to callers’ relationships with their physicians.
They must also follow many confusing and arbitrary policies and procedures. For example,
they:

b       must obtain their supervisor’s permission before sending certain types of publicly-
        available information (e.g., information for health professionals from Cancernet);
b       cannot send information to a third party even when the caller statesshe is inquiring on
        someoneelse’s behalf;
t       must follow an information hierarchy, even if the information is not relevant;
b       must ask if the caller has spoken with her physician about support groups before
        providing support group referrals and
t       can quote, but cannot send, certain NC1 and other publicly-available materials
        (e.g., Medline information).




                                                  6

The CIS’s goal is to provide callers with accurate, up-to-date information on very complex
diseasesthat afflict 40 percent of the nation’s population. Staff are pressuredon two distinct
fronts: (1) they must give callers all of the information relevant to their condition (and not
rush the caller in the process)and (2) they must be able to answer and respond to all the callers
who are trying to get through. Information specialistsare genuinely concernedabout the busy
signal rate. In at least two contractor offices, information specialistshave resorted to covering
up the queue indicators on their phonesbecausethey get ‘%tressedout” when they seethem
while on a call. Accessproblems are a sourceof stressin their lives, and their self-evaluations
of job performance are clearly affected by the service’s inability to deal with public demand.

At most CIS contractors, information specialistsare afforded little opportunity for career
advancement. Salary ranges, which are determined by eachcontractor’s parent institution,
typically fall below $30,000 per year. Still, information specialistsremain dedicatedto CIS;
more than 65 percent of them have been with the service longer than 3 years, and more than
23 percent have been with the service longer than 5 years.

Many information specialistsvolunteered that their ability to help people provides them with
personal andjob satisfaction. At one CIS contractor, a retired physician decided to work for
CIS becausehis son had been misinformed about cancertreatment options by his doctors. He
felt that he could make a difference in the lives of cancerpatients while working at CIS. At
another contractor, information specialistswere volunteering their own time for additional
training that the contract was not funding.

The CIS invests in an ambitious and comprehensive trainingprogram

Information specialist training is comprehensiveand includes a continuing education
component. All information specialistsare required to complete an initial 8-week training and
certification process. Currently, applicants must have college degreesor must be registered
nursesto qualify as information specialists. In the absenceof thesequalifications, they must
have serveda minimum of 2 years as a CIS information specialist at another time. Initial
training covers CIS policies and procedures, a general overview of cancer topics such as
treatment, detection and staging and expandedtraining on breast, prostate and lung cancer. In
order to maintain certification, information specialistsare required to complete a minimum of
12 hours of continuing education per quarter, must answer the phones a minimum of 12 hours
per week and must maintain quality per CISTERS standards. Contractors choosea variety of
methods for information specialiststo complete continuing education, such as participation in
hospital grand rounds, attendanceat lectures or assignedreadings. Finally, CIS contractors
are required to conduct special training programs at the discretion of the CIS Branch.

Eighty-six percent of information specialistsranked CIS training as either excellent or very
good. While information specialistshighly regard their cancer training, they believe that
managementtraining, software training, training on technical information and Internet training
would be useful.




                                               7

Cancer organizations are impressedwith CIS training. Two cancer organizations indicated that
they would like to participate in CIS training when askedhow they would like to work more
closely with CIS. A third commented that CIS training is a “real highlight” of a “generally
wonderful” service.

The CISTERSprogram      is an excellent evaluation tool, although it is misunderstood by some
con tractor staff

The CIS Telephone Evaluation and Reporting System (CISTERS) program evaluatescontractor
performance consistently and without bias, with an eye toward developing staffs’ ability to
handle calls. With the participation of contractors, the staff at CISTERS developstest call
“scenarios” that accurately representreal calls. They call all contractors and document the
outcome of the calls on a custom computer software application. More than half of the
contractors believe that CISTERS improves call efficiency. Several mentioned that it helps
organize calls, although its suggestionsmay increasecall length. According to staff, “Test
calls are valuable; they hit on important issues”and “CISTERS improved call efficiency
tremendously. Call guidelines are helpful; they bring information specialistsback to key
issues.” In a customer satisfaction survey that was conductedby the CIS Branch, most
contractors said CISTERS was helpful and reported different and creative ways they use
CISTERS reports to improve service.

Staff from the CIS Branch suspectthat some contractors totally disregard CISTERS
recommendations, while others employ varying degreesof action. Some contractor staff are
concernedabout not following CISTERS criteria and view the reports as punitive rather than
instructive. Comments from those staff members indicate that not everyone understandsthe
purpose of CISTERS. We visited severalother health information telephone lines. None of
them has an evaluation tool that comparesin usefulness.

The program is not without its limitations, but the deficiencies we detectedwere minor relative
to its merits. For example, CISTERS does not develop scenariosthat involve highly emotional
callers, a scenariothat information specialistsappearto be struggling with. One information
specialist asserted,“They (CIS Branch) don’t want us to think of ourselvesor call ourselves
‘counselors.’ But we are, we really are.” We observedanother information specialist who
appearedawkward on a highly emotional call, reading scripted customer service questionsat
its conclusion. The program actually performs relatively few test calls, less than 10 per
contractor per quarter. Some contractors have complained that such a small sample cannot be
used to gaugetheir performance accurately. Sampleswill be increasedin 1998, however,
according to CISTERS staff.




                                               8

THE CIS DOES NOT TAKE FULL ADVANTAGE OF ITS CURRENT TELEPHONE
TECHNOLOGY   TO IMPROVE ACCESS AND CUSTOMER SERVICE

Callers are not routed to the first available information   specialist

The CIS’s single toll-free phone number automatically routes calls basedon the caller’s
geographic location. The contractor’s ability to promptly answer the call is not taken into
consideration. Basedon CIS call statistics and our on-site visits, we discovered marked
variancesin demand and accessamong the different contractors. We observedat least one
contractor with phone lines open for most of the day, while other offices had persistent queues
of waiting callers. The CIS’s policy of routing callers to geographic contractors is not the
most efficient way to ensurethe highest level of accessand customer service. Although
current CIS telephone technology allows callers to be transferred or routed among contractors,
this technology is used only occasionally to offset temporary, unplanned closings.

The CIS lacks important recorded messages

The CIS does not provide callers with the option of obtaining recorded information that could
preclude them from reaching a busy signal or waiting on hold. For example, recorded
information is not offered about CANCERNET (a website for NC1 Fact Sheets,the PDQ and
other cancer information), CANCERFAX (an automatedfax service to obtain NC1 printed
materials), the PDQ SearchService for Health Professionals, frequently addressedcancer
topics and other sourcesof cancer information, even though such information may help callers
when the phone lines are full.

Standardinformation, such as medical disclaimers (explaining that information specialistsare
not physicians) and source citations (generally NC1 materials), is repeatedby information
specialiststo every caller instead of through an introductory recorded message. Information
specialistsmentioned that the requirement to repeat the disclaimers and citations is excessive,
that the wording is stiff and scripted and that disclaimers often interrupt the flow of the call
and damagetheir credibility. In addition, when CIS is inundated with calls about a particular
topic arising from intense media coverage, CIS does not take full advantageof telephone
technology by giving callers the option to listen to explanatory messages.

DATA GATHERING          REQUIREMENTS          ADVERSELY         AFFECT   CALL   EFFICIENCY

The Electronic Call Record Form software is problematic

The Electronic Call Record Form is marred by technical problems and restrictive policies on
its use. At best, the form is only a slight improvement over paper forms. At worst, it
significantly impedes information specialistsfrom quickly and efficiently taking calls.
Managers, supervisors and information specialistsagreethat the Electronic Call Record Form
software is a source of inefficiency and a weaknessin the telephone service. Information
specialists, in particular, believe that the software is in dire need of improvement. Examples
of software problems identified by information specialistsinclude:


                                                  9
b	     the inability to move to a new Electronic Call Record Form without completing the
       current form on the screen. This meansthat information specialistsmust complete the
       form even if there is a queue;

t	     the need to manually insert codes. For example, if a caller refusesto answer the
       demographic questions, the software does not automatically input refusal codesto all
       questions. Instead, information specialistsmust input a refusal code for eachquestion;

t	     the need to type a narrative for the call as well as enter codes for the sameinformation
       provided in the narrative and

b      computer crashesand freezescausedby the software under certain circumstances.

One telephone service supervisor, who also answerscalls, capsulized the frustrations of many
respondents,

       The form isjust storage. It doesn’treally takeadvantageof computerabilities. If
       there’sa problemwith it, everyoneneedsto log-outandstart-up. This totally disrupts
       calls. NC1doesn’tunderstand.If you leavea field blank, an error comesup, andit is
       difficult to correct. Centralsupportrespondedto this by saying,“fill in all blanks.”

The Electronic Call Record Form software causesthe computers to go down two to three times
per week, according to a manager at another contractor.

100 percent data gathering is excessive

To capture detailed information about the nature of the calls, the demographics of callers and
trends in eachregion, CIS requires that information specialistscomplete an Electronic Call
Record Form for each call. Becauseof this, information specialists cannot move quickly from
call to call. According to information specialists, completing demographic questionsadds
severalminutes to every call. Documenting everything else, from the reason for the call to the
responseto the inquiry, adds even more time. Nevertheless,CIS has mandatedthat
information specialistsdocument 100 percent of calls and gather demographic data on half of
them, despite the negative impact on phone service and current accessproblems.

Randomly sampling populations for multi-variate analysis (including the type CIS does with its
call data) is a widely acceptedpractice in government and the private sector. Service
providers, including those providing health information, regularly use random samplesto
monitor their customer service, quality improvement and quality control. A government health
information service similar to CIS is sampling 1 in 30 callers for all data gathering. This
includes the reasonsfor the call, responsesby staff and customer satisfaction.




                                               10 

INFORMATION SPECIALISTS COULD BE MORE EFFICIENT IF THEIR
RESOURCES WERE MORE READILY ACCESSIBLE AND USER-FRIENDLY

The Physician Data Query inhibits call efficiency

The Physician Data Query (PDQ) is technologically archaic and time consuming. While
contractors believe that PDQ information is typically “excellent,” nearly all of them identified
problems with the program. Although most of the problems relate to the PDQ’s
user-friendliness, staff reported myriad other problems such as incomplete, incorrect and
out-dated information. One staff member described the amount of problems as “ungodly,” and
another statedthat “the PDQ needsto be completely overhauled, becauseit isn’t easyto use
when on a call. ”

BecauseCIS usesa DOS-basedcomputer version of the PDQ, information specialistscannot
conduct keyword searchesor easily move within or between documents. As a result, they
cannot quickly scroll through information, and they may not be able to locate information on
specific topics such as “hot flashes” or “nausea.” While there is a clinical trial searchtool, staff
mentioned that the tool is not consistentand doesnot always return appropriate trials. To
avoid navigational and searchproblems throughout the PDQ, several regions take time to
download it into WordPerfect files or Folio View, and at least one region usesa hard-copy
PDQ rather than the computerized version.

While CIS contractors report most PDQ problems to NCI, staff from several contractors
believe that NC1 is not responsive. According to NCI, the programming requirements of the
PDQ do not allow problems to be addressedeasily.

Community service databases are inaccessible, incomplete and inaccurate

More than half of all information specialistsreported that their community service databases
are inaccessible,mostly becausethey are not computerized. Information specialists in several
regions must thumb through a Rolodex or binder to identify community service referrals
during calls. They claim that calls would be shorter if the community serviceswere indexed
on their computers. While some regions have computerized their community service
databases,not all regions have the technology, time or expertise to do this. Further,
computerization does not mean that the databasesare accurateor up-to-date.

The lack of a clear policy and direction for gathering and maintaining community service
information has resulted in inaccurate and incomplete databasesat some contractors. While a
majority of contractors reported that community service referrals are important, there was
inconsistency in the staffs’ understanding of (1) NC1 policy and direction with regard to
community referrals, (2) what standardsshould be imposed for inclusion of community
organizations and (3) when and how to update their databases. For example, some contractors
have opted to use databasesprovided by other organizations. One contractor is mainly using
“Fact Sheets”on how to find and choosea community organization, while other contractors are
providing referrals to national organizations only. Information specialists complained that
their community service databasesare the least complete and accurateresourcethey use.

                                                11
Managers corroborated with comments like, “Referral servicesare very problematic, especially
for the staff. We only have a few resources,” and “Having current resourcesis a sourceof
great trouble. We need to be up-to-date.” For additional information on community service
referrals, seethe companion report entitled, “The Cancer Information Service--A Resourcefor
National Cancer Organizations” (OEI-09-97-00361).

Contractors cannot easily maintain and update NCI ‘%act Sheets ”

Staff at CIS contractors complain that the processof updating “Fact Sheets”is wasteful. “Fact
Sheets”are one of the primary resourcesinformation specialistsuse during calls, becausethey
cover a range of frequently addressedtopics in a concise and easy-to-understandmanner.
Becausemost regions maintain “Fact Sheets”in binders at eachdesk, the current system for
updating them (which includes downloading, photocopying, distributing and making sure the
old ones are discarded) is inefficient. Updating is complicated by the fact that one “Fact Sheet”
may be revised severaltimes within a short time period. According to staff, computerization
would easethe updating processand allow easier organization and access. One contractor is
using a scannerto computerize the sheets;however, most contractors do not have this
capability.

THE REGIONAL STRUCTURE                 DOES NOT CONTRIBUTE               TO A CONSISTENT          AND
EFFICIENT PHONE SERVICE

Demographic differences among the regions may affect demand on CIS

There are measurabledifferences in the contractors’ regional populations, and it doesnot 

appear that CIS resourcesare equitably allocated to addressthe most basic of thesedifferences. 

For example, total resident population and percentageof population over age 

65 (most cancersoccur in those over age 65) probably influence contractor demand. Regions 

consist of populations that range from approximately: 


t      1.2 million to 22.4 million7 in total residents, 

b      10.5 percent to 16.7 percent in residentsover age 65, 

b      395,000 to 3.7 million in population per available CIS phone line in the region and 

b      51,000 to 508,000 in residentsover age 65 per available CIS phone line in the region. 


In addition to the variances in demographics among the regions, there are variancesin 

demographics among contractors who have the samenumber of phone lines. For example, a 

contractor with only 4 phone lines is serving a region with 3.9 million residents, while another 

contractor with 6 phone lines is serving only 1.4 million residents: 





       7 Source: 1997projections--US CensusBureau and the CIA World Factbook (for Puerto Rico only)

                                                   12
                Number of Telephone Lines Compared to Regional Demographics
                                   Regionat population        Resident population   over
          Lines     Contractors
                                          per line                  age 65 per line

            3             1               395,000                       51,000

            4             7           2.6 - 3.9 million            312,000 -482,000

            5             5           1.4 - 3.7 million            152,000 - 505,000

            6             6           1.4 - 3.7 million            185,000 - 508,000


It is not clear that the regional structure positively contributes to customer service

Despite CIS’s assertion that the regional structure enhancescustomer service, we were unable
to identify any factual basis to support the claim. Furthermore, we interviewed staff from
health information servicesproviding telephone servicessimilar to CIS and found that
disseminating technical health information and dealing with callers in crisis from a central
location can be done efficiently and achievea high level of customer satisfaction. One cancer
organization statedthat they have not had any objections to their centralized service (that was
recently consolidated from many regional locations), because“if you give [callers] what they
want, they don’t care where you are.”

We found no evidencethat callers are better servedby information specialists located within a
geographic region that the caller is likely to identify with. In fact, the opposite is true. It is
unlikely, given CIS’s current regional structure, that 1) a large majority of callers identify with
the location of their CIS contractor office and 2) CIS contractor staff are necessarily more
aware of all of the areasthey serve simply becauseof their location (seethe appendix for the
current CIS regional structure).

The CIS also claims that the regional configuration is important for the outreach program.
While it is true that outreach targets communities within the region, the relationship between
outreach and the phone service is superficial at best. Although the telephone service and the
outreach coordinators are housedin the samecontractor offices, most contractors did not
identify a strong relationship or interdependencebetweenthe two programs. In most regions,
the information specialistsdo not participate in outreach and the only relationship between the
two programs is that outreach promotes the telephone service, the telephone service fields calls
for outreach and information specialistssometimesprovide the outreach coordinator with
technical information. In fact, severalproject directors indicated that they are struggling to
find a relationship between the two programs becausethey have different “missions,” “reach
different groups” and “are two separatepiecesthat do not always function together.”

Con tractors receive different levels of support from their parent institutions

Most project directors believe that they have good relationships with their parent institutions,
but somebenefit more from theserelationships than others. For example, some contractors
receive money towards salaries, free spaceor renovated space. They also receive equipment

                                                    13
(including computers), furniture, technical support, administrative support, promotion and a
general sensethat the parent institution believes in the CIS mission and goals. Some
contractors have enough office spaceto provide information specialists with their own work
area away from the phone room. Among contractors that receive considerable support from
their parent institutions, project directors told us that “the center fills gaps that the contract
doesn’t cover” and “[Our parent institution] understandsthat we are part of NCI, but they still
provide us with whatever we need.”

Unlike thesemore fortunate contractors, other contractors receive only benefits that are
available to all employees of the institution such as discounts on tuition and accessto training
and speakers. They are often housed in less desirable spacewhich is not on, or even adjacent
to, the main campus. Their computer equipment is outdated and technical support is “catch as
catch can.” Information specialistsmust sharedesksand have no private study space. They do
not even have dividers between their workstations. Similarly, the more fortunate contractors
have the capacity to computerize information to make it more accessible,while thesedo not.

Personnelclassifications vary by contractor, as well. Some classifications do not seem
appropriate for information specialists.’ For example, information specialistsat one contractor
had been classified as “phone operators” while at another they had been classified as
“coordinators.” In contrast, the parent institution of another contractor worked closely with the
project director to create a ‘(medical information specialist” classification to acknowledge the
special skills that the job entails.

Contractor policies, procedures and management practices affect telephone access and
employee morale

Although the CISTERS program and other quality assurancemeasuresinsure that CIS
contractors provide consistent information, there is little consistencyin the way contractors
managetheir workload. These include the ways they conduct clinical trial searches,assemble
mailings and retrieve information. Though most contractors have assignedstaff who are
scheduledto conduct clinical trial searches,other contractors allow information specialiststo
complete clinical trial searchesat any time. Similarly, at some contractors, mailings are
handled by administrative or assignedstaff or during scheduledoff-phone time, while at others
information specialistsassembletheir mailings between eachcall, even if there is a queueof
waiting callers. Further, some contractors have insured that assembling mailings is as efficient
as possible by having commonly used items pre-copied and commonly sent packagesprepared,
but others photocopy information and assemblepackagesfor eachmailing. Some contractors
have said that information specialists, being highly trained professionals, should not spend
their time filling and stamping envelopes. The CIS Branch has plans to institute an electronic
publication ordering service, but this can only be done after contractor computer hardware is
upgraded. Furthermore, only some contractors have the capacity, support and interest to
computerize as much information as possible, thus making the information easier to accessand
organize.


       s Note: the OIG did not collect personnelclassifications from all 19 contractors.

                                                      14
Variations in how managersinteract and allocate work frustrate some staff and may affect
accessto the phone service. During focus groups, information specialists expressedfrustration
that managersare not involved enough in the daily operations of the telephone room. They felt
that this made it difficult when managersinstituted change, becausemanagerswere not always
aware of how changeswould affect telephone room operations. While a majority of telephone
service managersanswer the phone lines, information specialists at a few contractors expressed
frustration that their managersdo not take calls. At one contractor, staff complained that they
are not receiving the breaks they are entitled to becauseof the demandsof the telephone line;
however, their manager does not take calls to help alleviate this problem. Staff also
complained that their manager interrupts them during calls to give them written “reminders”
and make sure they give callers complete information. Information specialists find this
practice frustrating and demoralizing. Additionally, severalproject directors expressed
concern about the inadequatemanagementand supervisory skills in their offices.

There also are variances in the opportunities for professional growth that contractors offer
information specialists. Severaltelephone service managersexpressedfrustration about their
ability to provide information specialistswith opportunities for professional growth. However,
some contractors have tried to addressthis by expanding the role of the information specialist
to include rotating supervisory responsibilities or other assignments,such as database
development and maintenance.

THE CIS CUSTOMER SERVICE              STANDARDS     DO NOT ADDRESS ACCESS TO THE
TOLL-FREE  SERVICE

Benchmarks or standards aimed at reducing access barriers have not been developed

Contractors are not required to keep their busy signal rates, wait times and abandonmentrates
under any specific threshold. Standardshave not been developed, such as minimum expected
number of calls, maximum allowable cost per call or maximum allowable busy signal rate.
Contractors do not know what the CIS Branch expectsin relation to accessindicators, if
anything. Some contractors are uncertain about how to balanceproviding quality, personalized
and detailed attention to callers with their need to reduce busy signals and wait times. One
telephone service manager commented that “the number of standardsin the contract should be
investigated” and suggestedthat standardsbe developed separatelyfor each contractor. In the
absenceof standardsprovided by the CIS Branch, this manager has instituted a standardfor the
number of calls that her staff should complete per day.

Similar national health information   telephone services have benchmarks and standards

One nonprofit telephone health information service is applying private sector standardsand
techniquesthat are similar to those mentioned in the National Performance Review. Located in
a single national call center, the service recruited and hired a manager who had manageda
corporate call center. The service has goals for wait times, abandonmentrates and “service
levels.” Technology permits them to virtually eliminate their busy signal rate. The service
currently experiencesa 15-secondaveragewait time with a goal of 12 secondsand has a


                                               15
3.5 percent abandonmentrate with a goal of less than 3 percent. The percentageof calls
answeredin 30 secondsor less is 88 percent, with a goal of 90 percent.

Another health information service, operating under a federal government contract, has call
volume standardsset by the contracting agency. The service is under contractual obligation to
complete a minimum number of calls per year.




                                             16 

The Cancer Information Service, through its telephone service, provides the public with an
invaluable resource for information about cancerprevention, causesand treatment. To expand
accessto the toll-free service, the Office of Cancer Information, Communication and Education
should:

1. 	   Complete and implement its plans to upgrade CIS telephone technology to enhance
       contractors’ ability to provide information to all callers.

       Among the improvements that should be consideredare:

       b      the ability to route callers nationally to the first available information specialist;

       t	     the use of recorded messagesthat (1) notify callers of their estimated hold time
              or place in queue, (2) prompt callers to call back if all lines are full, (3) prompt
              callers to chooseeither the first available information specialist nationally or an
              information specialist in their region, (4) provide basic cancer information and
              (5) include the medical disclaimer and a citation that only NC1 resourcesare
              used unless otherwise noted by an information specialist and

       t	     the option to listen to recorded messagesthat provide telephone numbers for
              CANCERFAX and the PDQ SearchService for Health Professionals,
              information about CANCERNET and up-to-date NC1 responsesto current
              media eventson cancer (e.g., green tea and cancer, the nuclear fallout study).

2. 	   Establish minimal technical requirements        and performance    standards for
       contractors.

       This could be accomplishedby:

       t	     implementing minimum requirements regarding CIS contractors’ computer
              hardware and software, staff computer aptitude and technical support,

       b	     creating a single LAN for CIS contractors to (1) eliminate many of the problems
              with maintaining and updating databasesand software and (2) facilitate the
              computerization of more information and

       b      using benchmarks similar to those in the National Performance Review.

3.     Modernize   and correct deficiencies in the Physician Data Query.

       t	     Continue efforts to redesign the PDQ to enhancesearchand navigational
              capabilities, completenessand accuracy.



                                                17 

       b	     Insure that CIS staff, including information specialists, continue to be involved
              in PDQ improvement efforts.

4. 	   Improve the efficiency of information specialists by reducing data gathering
       requirements and computerizing more reference materials, such as “Fact Sheets.”

       t	     Improve the Electronic Call Record Form by eliminating technical problems and
              restrictive policies, such as the needto manually insert codesand enter codesas
              well as narrative.

       b	     Require documentation of calls and collection of demographic data by utilizing
              statistically valid random sampling.

       b	     Allow contractors to use disclaimers and citations at their discretion, given that
              callers will hear a recorded message.

       w	     Move forward with plans to institute a system whereby contractors would not be
              responsible for the actual mailing of publications to callers.

5. 	   Discontinue collecting and disseminating information on community services;
       instead, partner with national cancer organizations who would provide this
       information.

       The CIS has been unable to routinely collect, update and disseminate information on
       community resources. Two national cancer organizations have committed considerable
       resourcesto this effort and would like to partner with CIS to provide referrals. Seethe
       companion report entitled “The Cancer Information Service--A Resourcefor National
       Cancer Organizations” (OEI-09-97-00361) for more information on this subject.

6.     Re-evaluate the regional structure of contractors.

       b      Basethe structure on objective criteria, analysis and performance indicators.

       t	     Consider reducing the number of contractors and increasing the number of lines
              to eliminate inconsistenciesand allow contractors to answer more calls.

       b	     Reallocate resourcesbasedon historic and expecteddemographic predictors of
              call volume (e.g., resident population, cancer incidence).

7.     Encourage contractors   to further enhance training.

       b	     Regularly evaluatethe training needsof CIS staff with the goal of not only
              increasing cancer knowledge but also career advancementskills.

       b	     Clarify and publicize the instructive purpose of CISTERS and contractors’
              obligations to addressCISTERS recommendations.

                                               18
AGENCY     COMMENTS        AND OIG RESPONSE

We received written comments on the draft report from NC1 (seeappendix B). We are
encouragedthat NC1 already has taken action on some of our recommendations. However, we
remain concernedabout inefficiencies in vital areasof the program and would like to clarify
and reassertthe following recommendations.

1. DATA GATHERING PLAN

Sampling is a scientifkally valid methodfor collecting caller information

To improve the efficiency of CIS, NC1 should quickly adopt a statistically valid sampling
methodology that would capture caller data and information. For example, our statisticians
have suggestedthat an annual sample of no more than 6 to 10 thousand callers could provide
adequateand reliable data to project to the universe of callers. In order to addressCIS’s
concernsabout collecting adequatedata specifically from small groups of under-servedcallers,
our statisticians suggestthat sample sizescould be modified using a screening question.

2. COMMUNITY SERVICE INFORMATION

Private sector organizations are in better positions to provide the public with information about
community resources,and CIS should no longer attempt to duplicate their efsorts

Since considerableprivate sector resourcesare being spentto develop, maintain and
disseminateinformation for the public on community resources,we must emphasizeour
recommendation that CIS discontinue duplicating private sector efforts. Given their finite
resourcesand inability to implement efficient systemsfor developing and maintaining a
community referral system, we recommend that CIS contractors no longer operate such
systems. Instead, CIS should rely on national organizations who also have toll-free
information servicesto provide this service.

Using one national database,CIS contractors could refer callers to organizations that maintain
up-to-date information on local resourcesfor cancerpatients, their families and friends. By
doing so, contractor resourcescould be committed to where they are neededmost--providing

NC1 information about the prevention, causesand treatment of cancer to the public in a timely
and easy-to-understandmanner.

3. CIS REGIONAL STRUCTURE

 Thephone service’s current regional structure is ineficient. Furthermore, it cannot be
justified by the phone service’s relationships with the outreach program and research activities.

Regardlessof CIS’s outreach program and researchactivities, the current regional structure
does not strengthenthe telephone service. Specifically, there is no correlation between the


                                               19
regions’ sizes, budgets, number of attempted and completed calls, number of phone lines and
number of staff.

While the CIS telephone service and outreachprograms are collocated, they are not
interdependent. The programs have different missions, different audiencesand, with few
exceptions, different staff members.

During the course of the inspection, there was little mention of the researchactivities or their
effect on the phone service. Contractors who did mention researchparticipation explained that
such activities may consist of asking callers additional questionsor providing them with
additional information. Contractors’ participation in the researchprojects varies. Some
contractors did not believe that such projects interfered with the day-to-day work of the phone
service, while others did not believe that it is appropriate for CIS staff to conduct research.




                                              20 

        APPENDIX          A




THE CIS REGIONAL     CONFIGURATION 





               A-l
                         THE CIS REGIONAL               CONFIGURATION 

Region   I Area Served                                                                    I


1         Connecticut, Maine, Massachusetts,New Hampshire, Rhode Island, and Vermont

2         New York City, Long Island, and WestchesterCounty, NY

3        I New York State(excluding NYC and WestchesterCounty), and WesternPennsylvania   I


4        I Delaware,New Jersey,and EasternPennsylvania                                    I

         I District of Columbia, Maryland, andNorthern Virginia                           I

6        IGeorgia, North Carolina, and South Carolina                                     I

7         Florida and Puerto Rico                                                         I


8         Alabama, Louisiana, and Mississippi                                             I

9         Arkansas,Kentucky, and Tennessee                                                I

10        Ohio, WestVirginia, and SouthernVirginia                                        I

11        Iowa, North Dakota, Minnesota, SouthDakota, and Wisconsin                       I

12       IIndiana and Michigan                                                            I

13       IIllinois, Kansas,Missouri andNebraska                                           I

          Oklahoma and Texas

15       I Alaska, Montana, Oregon, Washington StateandNorthern Idaho
16       I Arizona, Colorado, New Mexico, Utah, Wyoming, and SouthernIdaho
         I Nevada andNorthern California
         I SouthernCalifornia                                                             I

                                                                                          I





                                                A-2 

          APPENDIX       B





NCI’S COMMENTS   ON THE DRAFT REPORT 





                 B-l
   DEPARTMENT      OF HEALTH     & HUMAN     SERVICES                          Public      Health     Service



                                                                               National       Institutes        of     Health
                                                                               Bethesda,         Maryland            20892
                                              APR 24 1998

TO: 	          June Gibbs Brown
               Inspector General, OS

FROM:          Deputy Director for Management

SUBJECT: 	     Office of Inspector General (OIG) Draft Reports, 77~ Cancer Information
               Service: Expanding TelephoneAccess,OEI-09-97-00360, and The Cancer
               Information Service: A Resourcefor National Cancer Organizations,
               OEI-09-97-00361

Attached are the National Institutes of Health comments,preparedby the National Cancer
Institute (NCI), on the subject draft reports. These reports provide confirmation of previous NC1
findings aswell as further insight into the issuesaffecting accessto this valuable resource for the
American public.

We agreegenerally with the OIG recommendationsor with the objectives of the
recommendations. However, in somecaseswe believe that theseobjectives can be met through
actions or initiatives other than those recommendedin the reports. Our commentsdescribe the
stepsthat NC1 has taken or plans to take to addresseachrecommendation.

Should your staff have any questions, pleasecall William Gillen, Office of Management
Assessment,at 301-496-2462.




Attachments




                                                                                  MAY.7i




                                                 B-2 

        DEPARTMENT   OF HEALTH     & HUMAN    SERVICES                        Public      Health    Service



                                                                              National       Institutes      of Health
                                                                              National       Cancer      Institute
                                                                              Bethesda,         Maryland         20892




TO: 	          June Gibbs Brown
               Inspector General
               Through: Director, NIH                APR2 3 1998
FROM:          Director, National CancerInstitute, NIH

SUBJECT: 	     Offke of Inspector General Draft Report: Cancer Information Service:
               Expanding Telephone Access(OEI-09-97-00360)

               Office of Inspector General Draft Report: The Cancer Information Service:
               A Resource for National Cancer Organizations (OEI-09-97-00361)


We have reviewed the above-referenceddraft inspection reports that assessaccessto the National
Cancer Institute’s Cancer Information Service. The inspections were conducted in cooperation
with NC1 program staff and the contractor staff at the regional CIS offices. The reports provide
confirmation of previous NC1 findings aswell as further insight into the issues affecting accessto
this valuable resourcefor the American public.

Our detailed comments on both reports are attached. Thank you for the opportunity to review
and comment.


                                                             -%
                                                            Richard D. Klausner, M.D.

Attachments




                                                 B-3 

                                 National CancerInstitute Commentson 

                                Oftlice of Inspector General Draft Report: 

                        Cancer Information Service: Expanding Telephone Access 

                                             OEI-09-97-00360 





I   NC1 GENERAL COMMENTS 


    The Office of Inspector General study provides confirmation of NC1 findings and tbrther insight 

    into the issuesaffecting telephone accessto the Cancer Information Service. It is useful to have 

    this additional, independent assessmentasthe National Cancer Institute proceedswith its plans to 

    upgrade the CIS and improve accessto this important source of accurate, up-to-date cancer 

    information for the public, patients, and health professionals. 




    OIG RECOMMENDATION 

    Completeand implement plans to upgrade US telephone technolog), to enhance contractors’ 

    ability to respond to calls andprovide information to all callers. 


           NC1 RESPONSE 

           The Institute agrees. Plans to upgrade the CIS telephone technology have been in 

           progress since 1996, and the NCI-commissioned report of an independent engineering 

           assessmentof the system,routing, and equipment hasbeen completed. On the basisof 

           this information, implementation of upgradesto telephone equipment is under way and 

           will be completed in FY 1998. 



    OIG RECOMMENDATION
    Ektablish minimum technical requirements and performance stanakr& for contractors.

           NC1 RESPONSE 

           The Institute agreesthat standardsare necessary. With the completion of the NCI­

           commissionedengineering assessmentof the CIS telephone service, the program has 

           baselinemeasurementsthat allow for implementing technical, operational, and 

           performance standards. This implementation is under way. 



    OIG RECOh4lvfENDATION
    Modernize and correct deficiencies in the PDQ database.

           NC1 RESPONSE




                                                   B-4 

        The Institute is undertaking a major redesignof its entire clinical trial information system,
        including PDQ. The new clinical trial information systemwill increasefUnctionaMy,
        integrate all NCI-produced information products, tailor information to meet the needsof
        diverse users,and makeinformation available in a variety of mechanismsand formats,
        including the World Wide Web.

OIG RECOMMENDATION
Improve the efjkiency of information specialists by reducing data-gathering requirements and
computerizing more reference material.

       NC1 RESPONSE 

       The Institute agreesthat efficiency can be improved. The Institute is working with the 

       CIS Evaluation Task Force, statisticians, and Institute staff to analyzethe data gathering 

       requirements, sampling plan, and the requirement for a narrative that documentsthe call in 

       addition to coding. However, the Institute believes that data collection is critical if the 

       program is to 1) continue to respondto information requestedby the public, Congress,the 

       press,or individuals and organizations interested in what the public wants to know about 

       cancer; 2) allow the CIS to participate in cancercontrol researchprojects; and 3) conduct 

       quality assurance. 


       The CIS is preparing to install a new document managementsystemto facilitate the 

       development, updating, and accessof CIS referencematerials. When implemented,the 

       systemwill allow the assemblyof all resourcesinto a searchable,computerized collection 

       accessibleby subject and keyword. 



OIG RECOMMENDATION
Discontinue collecting anddisseminating information on community services; instead, partner
with national cancer organizations who would provide this information.

       NC1 RESPONSE 

       The Institute agreesthat a more efficient and effective community servicesreferral 

       program is needed,but we continue to think that this type of information is helpfil to 

       many people. Redesign of a centralized listing of national organizations providing 

       community resourcesand referrals is under way. The Institute is actively seeking 

       partnerships with other national organizations to shareand reciprocate in this task. 


OIG RECOMMENDATION
Re-evaluate the regional structure.

       NC1 RESPONSE 

       The CIS program includes not only the telephone service but also an outreach program 

       and a researchcomponent that are strengthenedby a regional structure. 


       The CIS outreach program develops partnershipswith nonprofit, private, and government 





                                                B-5 

       agenciesat the national, regional, and state levels. The regional CIS offtces reach partners
       that have an establishedpresencein the region, are trusted within their communities, and
       are dedicatedto serving minority and underservedpopulations. Through collaborations
       with cancercenters and universities, regional CIS ofices participate in investigator-
       initiated cancercontrol and health communications research. All three program
       componentsmust be consideredwhen evaluating the regional structure of the program.
       AI1 options for structuring the program will be consideredwhen preparing for the renewal
       of the CIS contracts.

OIG RECOMMENDATION 

Encourage contractors tojirther enhance CIA’staff training. 


       NC1 RESPONSE 

       The Institute agreesthat staff development is important. The CIS program begana 

       managementinitiative in March 1998 to emphasizethe importance of professional 

       development and skills building in regional CIS offices. Additional training programsto 

       enhancecareerdevelopment for CIS staff are appropriate for contractors and indicate 

       institutional commitment to the CIS program. 





                                                B-6 

